OFFICE OF AUDIT
REGION VI
FORT WORTH, TX                               MEMORANDUM OF REVIEW




                  OFFICE OF

                  INSPECTOR GENERAL
                  U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT




            Bank of America Corporation
        Foreclosure and Claims Process Review
                    Charlotte, NC




MEMORANDUM NO. 2012-FW-1802                           MARCH 12, 2012
                                                                U.S. Department of Housing and Urban Development
                                                                Office of Inspector General, Region VI
                                                                819 Taylor Street, Suite 13A09
                                                                Fort Worth, TX 76102

                                                                (817) 978-9309 FAX (817) 978-9316
                                                                http://www.hudoig.gov
                                                                OIG Fraud Hotline 1-800-347-3735


                                                                                          MEMORANDUM NO.
March 12, 2012                                                                                2012-FW-1802

MEMORANDUM

FOR:             Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU

                 Craig Clemmensen, Director, Departmental Enforcement Center, CACB

                 //signed//
FROM:            Gerald R. Kirkland, Regional Inspector General for Audit, 6AGA

SUBJECT:         Bank of America Corporation
                 Foreclosure and Claims Process Review
                 Charlotte, NC


                               INTRODUCTION AND BACKGROUND

As part of the Office of Inspector General’s (OIG) nationwide effort to review the foreclosure
practices of the five largest Federal Housing Administration (FHA) mortgage servicers (Bank of
America, Wells Fargo Bank, CitiMortgage, JP Morgan Chase, and Ally Financial, Incorporated),
we reviewed Bank of America’s foreclosure and claims processes. In addition to this
memorandum, OIG issued separate memorandums for each of the other four reviews. 1 OIG also
plans to issue a summary memorandum reporting the results of all five memorandums. OIG
performed these reviews due to reported allegations made in the fall of 2010 that national
mortgage servicers were engaged in widespread questionable foreclosure practices involving the
use of foreclosure “mills” and a practice known as “robosigning” 2 of sworn documents in
thousands of foreclosures throughout the United States. 3

Bank of America is a supervised FHA direct endorsement lender that can originate, sponsor, and
service FHA-insured loans. During Federal fiscal years 2009 and 2010, it submitted 36,095
FHA claims totaling $5 billion.4 Bank of America acquired Countrywide Home Loans
Servicing, LP, in 2008 and processed claims using Countrywide’s FHA servicing identification

1
    See memorandums 2012-AT-1801, 2012-KC-1801, 2012-CH-1801, and 2012-PH-1801.
2
    We have defined the term “robosigning” as the practice of an employee or agent of the servicer signing
    documents automatically without a due diligence review or verification of the facts.
3
    With respect to foreclosure procedures, there are three variations: those States that require a complete judicial
    proceeding, which are referred to as “the judicial jurisdictions;” those that do not require a judicial proceeding;
    and those that are a hybrid. For purposes of these reviews, we determined that there were 23 judicial States and
    jurisdictions.
4
    Properties located in judicial foreclosure States and jurisdictions accounted for $1.3 billion in claims (26 percent
    of the claims). Properties located in nonjudicial foreclosure States and jurisdictions accounted for $3.7 billion
    in claims (74 percent of the claims). These amounts include all categories of FHA claims.
number during the review period. 5 Approximately 90 percent of its claims during the review
period, totaling more than $4.5 billion, were for loans previously serviced by Countrywide.

In early October 2010, Bank of America stated that it would halt judicial foreclosures while it
reviewed its policies and procedures. On October 18, 2010, it issued a press release reporting
that it had completed its review of judicial foreclosures and while it had identified no problems,
it would resubmit 102,000 affidavits in judicial foreclosure cases that had not yet gone to
judgment. On October 22, 2010, the U. S. Department of Housing and Urban Development
(HUD) issued a notice of violation informing Bank of America that it was considering
administrative actions and civil money penalties based on findings identified in its July 2010
servicing review.

From the beginning of our review in October 2010, Bank of America limited our access to
employees and information. After attempting to conduct interviews within Bank of America’s
established protocols without success, the U. S. Department of Justice (DOJ) assisted us by
obtaining testimony through civil investigative demands (CID). 6 Because we identified potential
False Claims Act 7 violations, in February 2011, we provided DOJ with our analyses and
preliminary conclusions as to whether Bank of America engaged in the alleged foreclosure
practices.

DOJ used our review and analysis in negotiating a settlement agreement with Bank of America.
On February 9, 2012, DOJ and 49 State attorneys general announced a proposed settlement of
$25 billion with Bank of America and four other mortgage servicers for their reported violations
of foreclosure requirements. As part of the proposed settlement agreement, each of the five
servicers will pay a portion of the settlement to the United States and must undertake certain
consumer relief activities. The proposed settlement agreement described tentative credits that
each mortgage servicer would receive for modifying loans, including principal reduction and
refinancing, and established a monitoring committee 8 and a monitor to ensure compliance with
agreed-upon servicing standards and the consumer relief provisions. Once the final settlement
agreement has been approved by the court, OIG will issue a separate summary memorandum
detailing each of the five servicers’ allocated share of payment due as a result of the settlement
agreement.

Our objective was to determine whether Bank of America complied with applicable foreclosure
procedures when processing foreclosures on FHA-insured loans.

                                 METHODOLOGY AND SCOPE

To accomplish our review objective, we

    •   Obtained an understanding of relevant legislation, program guidance, and criteria related
        to FHA single-family mortgage insurance.

5
    October 1, 2008, through September 30, 2010
6
    DOJ conducted the CID proceedings in Fort Worth, TX, and Washington, DC, between February 28 and
    September 20, 2011.
7
    31 U.S.C.§ 3729 et.seq.
8
    Comprised of representatives of the State attorneys general, DOJ, and HUD
                                                    2
     •   Obtained and reviewed available Bank of America written policies and procedures
         regarding its foreclosure process. 9
     •   Obtained and examined relevant reviews of Bank of America’s servicing and foreclosure
         processes.
     •   Obtained and examined the excerpts of personnel documents that Bank of America
         provided for selected employees.
     •   Obtained and reviewed various court documents related to the foreclosure practices of
         Bank of America and law firms that conducted work on its behalf.
     •   Interviewed Bank of America management and staff, including those involved in the
         document execution, notary, foreclosure, and claims processes.
     •   Worked with DOJ to issue 35 CIDs 10 to compel testimony.
     •   Attended testimonies given by 17 individuals pursuant to CIDs issued by DOJ. Our audit
         and legal staff met with DOJ attorneys and provided information, analyses, and relevant
         documentation to prepare for the CID testimony proceedings.
     •   Coordinated with Bank of America’s legal counsel, our Office of Legal Counsel, and
         DOJ attorneys from its Washington, DC, Civil Division Fraud Section and the Northern
         District of Texas.
     •   Identified and reviewed a statistical sample of 118 Bank of America FHA claims
         processed by HUD during the review period. The sample universe included 32,699
         claims records from HUD’s Single Family Data Warehouse associated with Bank of
         America and affiliated entities. We randomly selected an attribute sample using a
         presumed error rate of 10 percent, a desired precision range of 10 percent (+/- 5 percent),
         and a desired confidence level of 90 percent. The sample did not include claims
         processed in the names of Countrywide or Taylor, Bean & Whitaker. However, 100 of
         the 118 claims in our sample were previously held by Countrywide. 11
     •   Reviewed FHA claims and related documents for the 118 claims in our sample.
     •   Obtained and analyzed FHA claims data from both Bank of America and HUD.
     •   Obtained and analyzed Bank of America shipping logs 12 that identified documents signed
         and notarized during the review period and identified the attorney who prepared the
         document. However, as described in the following section, the data were incomplete.
     •   Issued two Inspector General administrative subpoenas for documents and records.
     •   Analyzed data for Bank of America FHA claims in the 23 judicial foreclosure States and
         jurisdictions.



9
     Although we repeatedly requested policies and procedures in effect during the entire review period, Bank of
     America would provide only those that generally became effective between May and October 2010.
10
     Under 31 U.S.C. § 3733 et.seq., CIDs can be served on a person to give oral testimony whenever the Attorney
     General has reason to believe that the person may be in control of information relevant to a false claim
     investigation.
11
     In August 2009, the Government National Mortgage Association hired Bank of America to service roughly $25
     billion in FHA receivables it seized from the firm Taylor, Bean & Whitaker. Our review incorporated loans
     previously assigned to Taylor, Bean & Whitaker only if Bank of America filed FHA claims in its own name.
12
     Bank of America’s shipping logs included FHA and non-FHA foreclosure documents. While Bank of America
     had separate teams that handled FHA and non-FHA foreclosures, it could not explain material differences in the
     processing of the foreclosures, and its shipping logs did not distinguish between FHA and non-FHA
     foreclosures. Bank of America provided incomplete data, which impeded identification of all affiants, notaries,
     and attorneys and the complete volume of documents.
                                                         3
During the course of our review and the drafting of this memorandum, Bank of America was
actively engaged in negotiations with DOJ in an attempt to resolve potential claims under the
False Claims Act or other statutes for the conduct we were reviewing. Accordingly, OIG
determined that our work product was privileged and not releasable to Bank of America for any
purpose, including the solicitation of written comments on our findings from Bank of America.
For this same reason, we did not provide Bank of America with a copy of the draft
memorandum. Both DOJ and HUD concurred with our determination that the work product was
privileged.

OIG also issued memorandums reporting the results of the reviews of four other servicers. The
results reported in the five OIG memorandums differ due to various factors. These factors
include (1) the level of information made available to the auditors at the time of the onsite
reviews or that was obtained later through subpoenas or CIDs; (2) variances between review
procedures used, including the analysis of the data, that were governed in part by the amount and
types of information obtained; (3) differences between the foreclosure procedures used by the
servicers; and (4) scope limitations imposed by some servicers.

Our review generally covered Bank of America’s foreclosure and claims processes for its FHA
claims initially processed by HUD between October 1, 2008, and September 30, 2010, including
its procedures for signing and notarizing sworn judgment affidavits. The review included both
judicial and nonjudicial foreclosure States and jurisdictions, which provided a comprehensive
overview of Bank of America’s practices and compliance with requirements. 13 We expanded the
scope as needed to accomplish our objective. We initiated our review on October 15, 2010, and
performed onsite work at Bank of America’s offices in Fort Worth, Plano, and Addison, TX, and
Simi Valley, CA, between October 2010 and January 2011.

                                                 Scope Limitation

Our review was significantly hindered by Bank of America’s reluctance to allow us to interview
employees. When interviews were permitted, the presence or involvement of attorneys limited
the effectiveness of those interviews. On a number of occasions, Bank of America’s attorneys
refused to allow employees to answer questions, stopped them in the middle of clarifying
information already provided, or counseled them in private before allowing them to provide a
response. Further, Bank of America would not permit an effective walkthrough of its document
execution process that would have facilitated an understanding of its process.

In addition, we issued Inspector General administrative subpoenas because Bank of America did
not provide information and data in a timely manner or a point of contact who could explain and
clarify data. However, the information and data provided in response to our subpoenas were not
complete. For instance, Bank of America provided only excerpts of subpoenaed personnel files,
did not provide complete foreclosure documents for the items in the sample, provided conflicting
information regarding who its affiants were, and could not identify all authorized notaries. As a
result, it was not possible to know how much information Bank of America omitted that was
relevant to our review. For example, although several employees described Bank of America’s
foreclosure process, it was not until its employees provided sworn testimony that they disclosed
that personnel in India conducted the critical foreclosure function of verifying judgment figures.
13
     Analysis of potential False Claims Act liability was limited to claims filed in judicial States and jurisdictions.
                                                            4
Further, Bank of America provided FHA insurance claims data for only two of its five servicing
identification numbers. In another instance, it provided data that identified signers, notaries, and
attorneys for each claim for only one-third of its FHA claims records. These omissions impaired
our review because they prevented us from measuring the complete impact of Bank of America’s
foreclosure practices.

In an effort to mitigate the scope limitation, DOJ issued CIDs to Bank of America and 34 current
and former employees to compel testimony. Of those, 1 corporate representative and 16 current
and former employees gave sworn testimony about their knowledge concerning Bank of
America’s operation of and/or reliance upon so-called foreclosure mills or robosigners to process
foreclosures. In addition, DOJ facilitated discussions regarding Bank of America’s response to
our Inspector General administrative subpoenas.

                                            RESULTS OF REVIEW

Bank of America did not establish effective control over its foreclosure process. This failure
permitted a control environment in which

         •    Affiants 14 routinely signed foreclosure documents, including affidavits, certifying that
              they had personal knowledge of the facts when they did not. Specifically, affiants
              signed large volumes of foreclosure documents without reviewing the supporting
              documentation referenced in them. They also consistently failed to verify the
              accuracy of the foreclosure documents they signed.
         •    Notaries public routinely notarized documents without witnessing affiant signatures.
              They also failed to keep required records of the documents they notarized. 15
         •    It may have allowed attorneys to improperly prepare documents and misrepresent the
              work they performed.

Review of 118 FHA claim files showed that Bank of America did not consistently retain legal
documents supporting the foreclosure. Analysis of the mathematical accuracy of seven affidavits
containing judgment figures showed inconsistent per diem interest calculations and discrepancies
in accrued interest totals. Also, in one instance, it conveyed a property to HUD with the
incorrect legal description. This flawed control environment resulted in Bank of America filing
improper legal documents, thereby misrepresenting its claims to HUD and may have exposed it
to liability under the False Claims Act.

                    Questionable Affidavit and Foreclosure Document Processes

Bank of America failed to follow HUD requirements 16 for properties it foreclosed upon in
judicial foreclosure States and jurisdictions. These provisions required Bank of America to
obtain and convey to the Secretary of HUD good and marketable title to properties. Bank of
America may have conveyed flawed or improper titles to HUD because it did not establish a


14
     An affiant is a person who signs an affidavit and attests to its truthfulness before a notary public.
15
     On July 11, 2011, we referred the apparent notary violations to the Texas Secretary of State.
16
     24 C.F.R. § 203.366(a) and HUD Handbook 4330.4, paragraphs 2-6 and 2-23
                                                            5
control environment which ensured that affiants performed a due diligence review of the facts
submitted to courts and that employees properly notarized documents.

Judicial foreclosures were processed through the court system beginning with Bank of America
filing a complaint or petition regarding a mortgage purportedly in default. The formal legal
document stated what the debt was and why the default should allow Bank of America to
foreclose on the property. In many judicial foreclosures, an affidavit was part of the foreclosure
documentation. Generally, a representative of Bank of America swore in a notarized affidavit
that Bank of America owned or held the mortgage in question and that the borrower was in
arrears. As judicial States and jurisdictions routinely resolved foreclosures through summary
judgment, 17 the accuracy and propriety of the documents were essential to ensure the integrity of
the foreclosure process. Bank of America used a flawed process to submit FHA conveyance
claims for judicially foreclosed-upon properties and received FHA claim payments of more than
$1.1 billion18 during the review period.

Affiants Robosigned Foreclosure Documents

Because Bank of America would not provide us written foreclosure policies and procedures in
effect during the review period, we relied on interviews and CID testimony to gain an
understanding of its foreclosure practices. Employees confirmed that affiants routinely signed
legal documents, including affidavits, without the supporting documentation and without
reviewing and verifying the accuracy of the foreclosure information. Many affiants stated that
they only checked to determine whether the foreclosure documents listed them as the signer. In
an interview, a vice president in the document execution group stated that her department only
checked foreclosure documents for formatting and spelling errors. 19

Further, Bank of America had no effective quality assurance function. For example, employees
who performed quality control auditing and training for the document execution group testified
that their focus consisted of ensuring that name and title stamps on foreclosure documents were
straight and legible. In addition, while giving sworn testimony employees could not explain to
DOJ the process by which personnel in India verified the judgment figures included in
foreclosure documents. 20

When asked about the number of foreclosure documents they signed, employees were unable to
provide DOJ with accurate estimates. However, they acknowledged that foreclosure document
volume increased exponentially over time. For example, one notary testified that daily volume
went from 60 to 200 documents per day to 20,000 documents per day with half being duplicates.
One former employee described signing 12- to 18-inch stacks of documents at a time without
review. Employees also admitted signing large volumes of foreclosure documents during
unrelated meetings without reading them. An employee testified that she was instructed to send
out an email message recruiting affiants because Bank of America needed more signers for

17
     A decision made on the basis of statements and evidence presented for the record without a trial. It is used
     when there is no dispute as to the facts of the case and one party is entitled to judgment as a matter of law.
18
     This amount was calculated based on information in HUD’s Single Family Data Warehouse and excludes
     claims for deeds in lieu of foreclosure.
19
     We have outlined this vice president’s affiant and notary activities in appendix A, as manager 1.
20
     Bank of America did not provide policies and procedures that included its India operations.
                                                           6
foreclosure documents. In addition, a former vice president in an unrelated business unit
testified that he was required to sign foreclosure documents.

Many employees testified that they relied on a system to ensure that documents they signed were
accurate. However, none effectively described the system. One manager testified that she was
volunteered to be an affiant. According to the manager, the vice president in charge of
foreclosure told her that the information had been verified and she “just simply needed to locate
the sticky in which it had Sign Here and sign my name.” When asked whether she verified the
information, the manager stated that she trusted that the information had been verified because
the vice president told her so. In addition, managers discussed in performance reviews an
unprecedented volume increase due to high foreclosures, which resulted in Bank of America
hiring additional contractors and new employees to prepare foreclosure documents.

Information provided by Bank of America also reflected an increased volume of foreclosure
documents over the review period and showed that it evaluated employee performance based in
part on metrics for processing high volumes of documents. As shown in figure 1, the total
monthly volume of documents signed varied from 4,000 in November 2009 to more than 64,000
in April 2010, with a total of 809,000 documents during the review period. The 10 most
prodigious affiants signed between 31,000 and 78,000 documents during the review period. 21
Appendix A contains affiant and notary narratives that describe the monthly volume of
documents signed and notarized by selected employees.
Figure 1: Document volume by month
     70,000

     60,000

     50,000

     40,000

     30,000

     20,000

     10,000

         0
                                                                                                      Jun 2009




                                                                                                                                                                                                                                          Jun 2010
                                    Dec 2008




                                                                                                                                                                        Dec 2009
              Oct 2008




                                                                                                                                                  Oct 2009
                                                                     Mar 2009


                                                                                           May 2009




                                                                                                                                                                                                         Mar 2010


                                                                                                                                                                                                                               May 2010
                                               Jan 2009
                                                          Feb 2009




                                                                                                                                       Sep 2009




                                                                                                                                                                                   Jan 2010
                                                                                                                                                                                              Feb 2010
                                                                                                                 Jul 2009




                                                                                                                                                                                                                                                     Jul 2010


                                                                                                                                                                                                                                                                           Sep 2010
                         Nov 2008




                                                                                Apr 2009




                                                                                                                            Aug 2009



                                                                                                                                                             Nov 2009




                                                                                                                                                                                                                    Apr 2010




                                                                                                                                                                                                                                                                Aug 2010




21
       As discussed in the Scope and Methodology section, Bank of America provided incomplete data, which
       impeded identification of the complete volume of documents each affiant signed.
                                                                                                                                             7
Bank of America’s foreclosure process during the review period did not ensure that it properly
executed foreclosure documents before submitting them to courts or ensure that it conveyed
good and marketable title to HUD.

Notaries Did Not Witness Signatures or Maintain Required Records

Bank of America did not establish a control environment that ensured that its notaries met their
responsibilities under State laws that required them to witness affiants’ signatures on documents
they notarized. 22 Bank of America employed notaries 23 who notarized signatures on foreclosure
documents, but it could not provide a complete list of these employees. Our sample included
documents with notary stamps from Texas and California. Both States required the notary to
authenticate the signer’s signature and maintain a notary log book detailing specific information,
such as the name of the signer, document notarized, and date. 24

Employees stated that affiants did not routinely sign documents in front of a notary. There was
no indication that Bank of America required them to do so. If a notary did not witness the
signature, the notarization of the document was improper. Two employees specifically testified
that they raised concerns about the notary process to management, but management told them to
continue the process. In CID testimony, one of the referenced managers said she did not recall
any concerns about the notary process being brought to her attention. One notary stated that
Bank of America set a target of notarizing 75 to 80 documents per hour and he was evaluated on
whether he met the target. According to the data provided, the 10 most active notaries each
notarized between 14,000 and 77,000 foreclosure documents during the 2-year review period.
The data also showed that one notary, in violation of Texas law, notarized her own signature on
two documents.

Despite management representations to the contrary, employee performance reviews
demonstrated that Bank of America used defined goals and metrics to evaluate performance
based on production in its document execution group. For instance, the manager progress notes
section of two document execution employees’ 2009 and 2010 performance reviews stated:

     •   “Your Stats so far this year are as follows: Affidavits 46.97 per hour (standard is 49 per
         hour), Assignments 54.74 per hour (standard is 51 per hour) and DocEx 49.67 per hour
         (standard is 46 per hour.”
     •    “Your stats so far this year are as follows: Affidavits 40.11 (standard is 49.00 an hour),
         Assignments 43.12 (standard is 51.00 an hour) and DocEx 36.91 (standard is 46.00 an
         hour). Your numbers are low but I understand why so they are acceptable.”
     •   “…maintains the production standards set by the Document Execution group and has
         very few errors…numbers are exceptional for department stats: Printing 140.77%,
         Prepping 148.08%, Stapling 148.02% and Notarizing 121.81%.”



22
     Every State’s notary laws require that the notary personally administer an oath and/or personally verify the
     identity of the document signer.
23
     These notaries had additional job duties and responsibilities.
24
     Texas Government Code, Chapter 406, Notary Public, Commissioner of Deeds, and State of California Notary
     Law Section 8200
                                                        8
As one of the primary purposes of using a notary was to verify the authenticity of the signer,
Bank of America’s failure to ensure that notaries witnessed signatures was a significant control
weakness. 25 Because this type of deficiency undermined the integrity of the control
environment, the affidavits and other foreclosure documents submitted by Bank of America were
unreliable and inauthentic, and may have exposed it to False Claims Act liability.

Law Firms May Have Engaged in Improper Practices

Bank of America used law firms that may have engaged in questionable practices to process
FHA-insured foreclosures. These practices ranged from allegations of robosigning and
unauthorized practice of law to a judge’s ruling that in an attempt to collect on questionable debt,
a firm filed deceptive documents and one of its lawyers lied in court.

For example, a high-level Bank of America official was referred to in a complaint 26 against
Goldbeck, McCafferty, and McKeever, PC (GMM), a law firm that conducted foreclosure work
for Bank of America. The complaint alleged that nonlawyers in the firm engaged in the
unauthorized practice of law by preparing foreclosure complaints, signing lawyers’ names to
those complaints, and filing those complaints in county courts around the Commonwealth of
Pennsylvania. The plaintiff averred that Bank of America knew of, directed, and profited from
the conduct of the nonlawyers and that the high-level official, an attorney, was present in a
courtroom when Mr. McKeever testified that it was “standard practice” for nonlawyers to engage
in the unauthorized practice of law. The complaint included transcript excerpts from the
December 8-9, 2009, hearing and 27 exhibits containing signatures supporting the allegation that
nonlawyer defendants prepared, signed, and filed hundreds of thousands of cases without
attorney review.

GMM processed 469 foreclosure documents for Bank of America in Pennsylvania and New
Jersey. Of the 118 sample loans, 2 were processed by the firm. As figure 2 shows, it appeared
that at least 5 different individuals signed 13 documents for attorney Michael McKeever for the 2
sample loans. If nonlawyers, on GMM’s behalf, signed and filed documents for FHA-insured
foreclosures, these filings may not have been valid and may have caused Bank of America to file
false claims.




25
     According to Bank of America, it implemented new procedures in October 2010 that required notaries to
     witness affiants’ signatures on foreclosure documents. However, we did not test the procedures, as Bank of
     America limited our review to the stated review period.
26
     Loughren vs. Lion, et al., GD-10, Allegheny County, PA
                                                         9
Figure 2: Five different signatures of attorney Michael McKeever for two sample loans




In addition, the Chief U.S. Bankruptcy Judge for Western Pennsylvania issued a memorandum
opinion and order 27 and a memorandum order 28 that were “intended to serve as a public
reprimand” 29 of GMM and one of its attorneys, Leslie M. Puida. The judge sanctioned the firm
and its attorney for filing deceptive documents in a foreclosure proceeding and found that
“Puida, and by extension GMM, had not been honest with this Court.” 30 The judge ruled that the
firm filed copies of three key letters created after the fact in an attempt to collect on questionable
debt that were never sent to the homeowner or her lawyer. The judge stated that “the evidence
that Puida lied was considerable” 31 and publicly reprimanded GMM and Leslie M. Puida for
their misconduct and ordered them to report to the Disciplinary Board of the State Supreme
Court.

In another Bank of America example, a notary for Phelan, Hallinan & Schmieg testified in a
deposition that over a 3-year period, “he falsely acknowledged tens of thousands of mortgage
assignments” 32 for the firm, often outside the signer’s presence. The notary also acknowledged
under oath that he notarized documents in New Jersey when he did not hold a notary license in
that State. In addition, a partner was accused of having potential conflicts of interest in the


27
     In re Hill, 437 B.R. 503 (Bankr. W.D. Pa., October 5, 2010)
28
     In re Hill, 437 B.R. 503 (Bankr. W.D. Pa., November 24, 2010)
29
     In re Hill, 437 B.R. 503 pg 8 (Bankr. W.D. Pa., November 24, 2010)
30
     In re Hill, 437 B.R. 503 pg 4 (Bankr. W.D. Pa., November 24, 2010)
31
     In re Hill, 437 B.R. 503 pg 5 (Bankr. W.D. Pa., November 24, 2010)
32
     Bank of New York v. Ukpe, pg 6 Docket No. F-10209-08
                                                         10
assignment of mortgage notes. 33 It was argued that the partner executed an assignment in his
capacity as a Mortgage Electronic Registration Systems 34 officer while Phelan, Hallinan &
Schmieg was also a vendor for Mortgage Electronic Registration Systems, the assignor. The
notary and partner had both been individually named in proceedings involving questionable
foreclosure practices for servicers other than Bank of America. 35 According to Bank of
America’s records, Phelan, Hallinan & Schmieg processed 931 documents for proceedings in 3
judicial foreclosure States. 36

Our analysis of Bank of America’s shipping logs showed that Bank of America used a small
group of law firms to process foreclosures. As shown in table 1, 10 law firms processed 62 and
81 percent of Bank of America’s judicial and nonjudicial foreclosure documents, respectively.
Many of these law firms had been named in various court proceedings throughout the country,
alleging questionable foreclosure activities.

Table 1: Top 10 law firms that processed Bank of America foreclosure documents
             Judicial foreclosure States                          Nonjudicial foreclosure States
                              Number of                                                Number of
          Law firm            documents      Percentage             Law firm           documents     Percentage
Feiwell & Hannoy, PC                976            9.81     Prommis Solutions, LLC          4,892         36.77
Phelan Hallinan &                                           Barrett Daffin Frappier
Schmieg                                931          9.35    Turner & Engel                   1,875         14.09
Reisenfeld and Associates              732          7.35    Millsap & Singer, LLC              788          5.92
Carlisle, McNellie, Rini,
Kramer & Ulrich Co.                    680          6.83    Trott & Trott                      761          5.72
                                                            McFadden, Lyon &
Luper Neidenthal & Logan               610          6.13    Rouse, LLC                         580          4.36
                                                            Bierman, Geesing, Ward
Pierce and Associates                  520          5.22    & Wood                             501          3.77
Lerner, Sampson &                                           Martin, Leigh, Laws &
Rothfuss                               492          4.94    Fritzlen, PC                       479          3.60
Goldbeck McCafferty &
McKeever                               469          4.71    Sirote & Permutt, PC               454          3.41
Codilis & Associates, PC               398          4.00    Adams & Edens                      274          2.06
                                                            Barrett Burke Wilson
Adorno & Yoss                          395          3.97    Castle Daffin & Frappier           220          1.65
Subtotal - top 10 firms              6,203         62.32    Subtotal - top 10 firms         10,824         81.36
Subtotal - all others                3,750         37.68    Subtotal - all others            2,480         18.64
                                                            Total nonjudicial
Total judicial documents             9,953                  documents                      13,304




33
     Bank of New York v. Ukpe, Docket No. F-10209-08
34
     Commonly referred to as MERS
35
     U. S. Bank NA v. Sinchegarcia, F-18446-08. Deutsche Bank National Trust Company v. Charlene Smith, No.
     08-3089
36
     Bank of America provided data that accounted for only about one-third of its FHA foreclosures during our
     review period. This lack of data impeded identification of the complete volume of documents each law firm
     prepared.
                                                       11
On November 16, 2010, the Congressional Oversight Panel released an in-depth report analyzing
the robosigning allegations. 37 Its report concluded that “[t]he foreclosure documentation
irregularities unquestionably show a system riddled with errors” and emphasized “that mortgage
lenders and securitization servicers should not undertake to foreclose on any homeowner unless
they are able to do so in full compliance with applicable laws and their contractual agreements.”

If third-party law firms engaged in questionable practices on behalf of Bank of America, the
foreclosures may not have complied with laws and agreements. These questionable practices
may have exposed Bank of America to liability under the False Claims Act.

Legal Documents Were Not Consistently Maintained

Bank of America’s FHA claim files for the 118 sample loans did not consistently contain
relevant preforeclosure information that supported the legal basis for foreclosure. Therefore,
Bank of America could not demonstrate that it conveyed clear and marketable title to HUD. In
addition, the file reviews identified 23 affiants who signed foreclosure documents on Bank of
America’s behalf but were not authorized to do so by appropriate board resolution as provided
by Bank of America. According to its records, the 23 individuals signed 820 foreclosure
documents during the review period. HUD should require Bank of America to retain in its FHA
claim files legal documents supporting the foreclosure and the underlying supporting business
records for those legal documents.

Affidavits Contained Inconsistencies and Errors

We reviewed the seven affidavits that contained judgment figures in judicial foreclosure States to
determine whether they were mathematically correct. Bank of America calculated per diem
interest charges inconsistently and had discrepancies in accrued interest totals. Specifically, it
calculated per diem interest using a 360-day year in three cases, 365 days in two cases, an
undetermined method in one case, and both methods in different versions of the document in the
last case. Errors in interest calculations ranged from $16 to $470. This error rate indicated that
Bank of America lacked proper controls to ensure that it correctly and consistently calculated
accrued interest charges in documents it filed in courts to support its foreclosure actions.
However, the unpaid principal balance on each affidavit matched the amount on the FHA
insurance claim in all seven cases.

Bank of America Conveyed a Property That Had an Incorrect Legal Description to HUD

Bank of America conveyed a property located in Modesto, CA, to HUD with an incorrect legal
description. 38 California is a two-deed State, requiring a trustee deed and a grant deed. The
grant deed conveying the property title to HUD used a legal description for a property on another
street. Because the legal description was incorrect, Bank of America did not give HUD good and


37
     Congressional Oversight Panel, November Oversight Report Examining the Consequences of Mortgage
     Irregularities for Financial Stability and Foreclosure Mitigation (November 16, 2010), available at
     http://cop.senate.gov/documents/cop-111610-report.pdf (submitted under section 125(b)(1) of Title 1 of the
     Emergency Economic Stabilization Act of 2008, Pub. L. No. 110-343)
38
     FHA case number 045-6483650
                                                        12
marketable title to the property. HUD regulations 39 required Bank of America to convey good
and marketable title as well as satisfactory title evidence. Because its internal controls did not
prevent the error, its foreclosure and later conveyance of title to HUD were improper. HUD
should require Bank of America to remedy the apparent defect in title for this property.

                                                CONCLUSION

Bank of America did not establish an effective control environment to ensure the integrity of its
foreclosure process. Because it failed to establish proper policies and procedures that fostered
compliance with laws and regulations, its affiants robosigned foreclosure documents, its notaries
failed to authenticate signatures, and it used law firms that may have falsified legal foreclosure
documents. As a result of its flawed control environment, Bank of America engaged in improper
practices by not fully complying with applicable foreclosure procedures when processing
foreclosures on FHA-insured loans, thereby misrepresenting its claims to HUD.

During the review period, Bank of America submitted 8,973 conveyance claims 40 totaling $1.1
billion in the 23 judicial foreclosure States and jurisdictions. DOJ used our review and analysis
in negotiating the settlement agreement.

                                              RECOMMENDATIONS

Once the settlement agreement is approved by the court, OIG will issue a separate summary
memorandum to HUD containing recommendations to correct weaknesses discussed in this and
the other four memorandums. Accordingly, this memorandum contains recommendations to
address only specific Bank of America deficiencies.

We recommend that HUD’s Deputy Assistant Secretary for Single Family Housing

1A.       Ensure that Bank of America retains appropriate legal documentation supporting all
          FHA-insured foreclosures in its FHA claim files.

IB.       Require Bank of America to remedy the apparent defect in title for the property it
          conveyed to HUD with the incorrect legal description (FHA case number 045-6483650).

We recommend that the Director of HUD’s Departmental Enforcement Center

1C.       Pursue appropriate administrative sanctions against notaries who may have violated State
          notary requirements.

1D.       Pursue appropriate administrative sanctions against attorneys who may have violated
          professional obligations related to foreclosures of FHA-insured mortgages.


Appendix:
Appendix A         Affiant and Notary Narratives

39
      24 C.F.R. § 203.358
40
      Excludes deeds in lieu of foreclosure
                                                    13
                                              APPENDIX
Appendix A

                     AFFIANT AND NOTARY NARRATIVES
The affiant and notary narratives in this appendix detail the volumes of documents signed or
notarized by selected affiants and notaries. We selected six examples of the affiant and notary
narratives to include in this memorandum from the 34 employees to whom DOJ served CIDs. 41
As stated in the body of the memorandum, the data Bank of America provided accounted for
only approximately one-third of its FHA foreclosures. Therefore, we have no assurance that the
figures presented in the narratives were complete and reliable.

The narratives also include excerpts from relevant testimony from CID proceedings conducted
by DOJ and excerpts from personnel records provided by Bank of America. In response to our
December 2, 2010, subpoena, Bank of America submitted partial personnel documentation
instead of providing complete personnel records as required. As a result, it was not possible to
know whether Bank of America omitted information relevant to our review. However, the
excerpts demonstrated that document volumes increased during the review period and Bank of
America evaluated employee performance based at least in part on whether employees met
predetermined metrics for processing foreclosure documents. The primary purpose of the
narratives was to assist DOJ in preparing for CID proceedings.




41
     Two employees who served as both an affiant and notary, two employees who were affiants, and two
     employees who were notaries
                                                      14
                   Manager 1 – Affiant and Notary

Manager 1 signed 12 foreclosure documents for 8 of our 118 sample loans, 2 of which were
potentially presented as evidence in judicial State court proceedings.

Affiant Statistics
According to Bank of America’s shipping logs, manager 1 signed 46,936 and notarized 45
foreclosure documents during the 2-year review period.

                               Manager 1 signatures by month
                      Month       Documents       Month      Documents
                      Oct 2008            449     Oct 2009        3,203
                      Nov 2008            148     Nov 2009          111
                      Dec 2008            673     Dec 2009            8
                      Jan 2009          1,136     Jan 2010        1,681
                      Feb 2009          1,104     Feb 2010        3,911
                      Mar 2009          1,187     Mar 2010        5,486
                      Apr 2009          1,765     Apr 2010        6,098
                      May 2009            499     May 2010        2,903
                      Jun 2009            979     Jun 2010        1,812
                      Jul 2009            664     Jul 2010        2,652
                      Aug 2009          1,760     Aug 2010        6,213
                      Sep 2009          1,269     Sep 2010        1,225
                  Total documents signed                         46,936

          7,000
                              Manager 1 signatures
          6,000

          5,000

          4,000

          3,000

          2,000

          1,000

              0
                    Jun 2009




                    Jun 2010
                   Dec 2008




                   Dec 2009
                   Oct 2008




                   Oct 2009
                   Mar 2009

                   May 2009




                   Mar 2010

                   May 2010
                    Jan 2009
                   Feb 2009




                   Sep 2009




                    Jan 2010
                   Feb 2010




                   Sep 2010
                     Jul 2009




                     Jul 2010
                   Nov 2008




                   Apr 2009




                   Aug 2009



                   Nov 2009




                   Apr 2010




                   Aug 2010




                                             15
Manager 1 routinely signed foreclosure documents, including affidavits, certifying that she had
personal knowledge of the facts when she did not. She consistently failed to verify the accuracy
of the foreclosure documents she signed.

CID Testimony
Manager 1 testified that Bank of America’s process did not require her to verify the information
in foreclosure documents before signing. She agreed that the standard industry practice was to
execute affidavits without reading documents. She did not specifically recall reading documents.
She also agreed that it was industry practice to have documents notarized outside the presence of
the signer. In her testimony, manager 1 responded that her direct supervisor, a vice president,
was aware and approved of the industry standard being followed. She assumed her supervisor’s
boss would have approved and been aware of the same.

When asked about a paragraph manager 1 signed stating that she had personal knowledge,
manager 1 said that she “didn’t read the document to read personal knowledge. Again, the
process was just to sign the document.” When asked if she did anything to verify an amount that
was due and owing, manager 1 responded, “No. The process at the time was just to sign the
document.” Manager 1 gave similar answers throughout her testimony. She was also a notary
and testified that she did not typically witness signatures.

Personnel File Excerpt
Manager 1’s supervisor (manager 3) discussed goals, metrics, and a reengineered document
execution process in her 2010 performance review:

   •   Your group “now has clear goals and metrics by which to evaluate performance. There
       exists an opportunity to address poor performance issues more rapidly.”
   •   “You have completed the re-engineering of the document execution proicess [sic]. This
       was a significant initiative you formulated that has enabled your group to rapidly scale up
       to match increasing volumes as well as improve turnaround time and communication.”




                                               16
                     Manager 2– Affiant and Notary

Manager 2 signed foreclosure documents for 4 of our 118 sample loans, 1 of which was
potentially presented as evidence in a judicial State court proceeding. Manager 2 also notarized
one judicial State foreclosure document.

Affiant Statistics
According to Bank of America’s shipping logs, manager 2 signed 67,908 and notarized 1,390
foreclosure documents during the 2-year review period. Bank of America’s records indicated
that manager 2 notarized her own signature on two documents.

                             Manager 2 signatures by month
           Month        Count       Month         Count              Month         Count
         Oct 2008         2,070   Jun 2009         3,471           Feb 2010           178
         Nov 2008           590   Jul 2009         3,411           Mar 2010           552
         Dec 2008           830   Aug 2009         3,796           Apr 2010         3,345
         Jan 2009         1,303   Sep 2009           652           May 2010         5,482
         Feb 2009         3,217   Oct 2009         1,068           Jun 2010         7,443
         Mar 2009         4,267   Nov 2009           324           Jul 2010         8,884
         Apr 2009         5,115   Dec 2009             5           Aug 2010         8,753
         May 2009         2,155   Jan 2010            27           Sep 2010           970
       Total documents signed                                                      67,908

            10,000
             9,000
                               Manager 2 signatures
             8,000
             7,000
             6,000
             5,000
             4,000
             3,000
             2,000
             1,000
                 0
                     Mar 2009

                     May 2009




                     Mar 2010

                     May 2010
                      Jan 2009
                     Feb 2009




                     Sep 2009




                      Jan 2010
                     Feb 2010




                     Sep 2010
                      Jul 2009




                      Jul 2010
                     Nov 2008




                     Apr 2009




                     Aug 2009


                     Nov 2009
                     Jun 2009




                     Apr 2010




                     Aug 2010
                     Jun 2010
                     Dec 2008




                     Dec 2009
                     Oct 2008




                     Oct 2009




                                               17
Manager 2 routinely signed foreclosure documents, including affidavits, certifying that she had
personal knowledge of the facts when she did not. She consistently failed to verify the accuracy
of the foreclosure documents she signed. Manager 2 also routinely notarized documents without
witnessing affiant signatures and failed to keep required records of the documents she notarized.

CID Testimony
Manager 2 acknowledged that she did not have personal knowledge when she signed foreclosure
documents. Further, she would not typically have additional case-related documents available to
her when she signed affidavits, but the information was available in Bank of America’s computer
system. However, she acknowledged that she did not routinely inform herself by looking at the
computer system.

Manager 2 testified that she would read the first paragraph of the document before locating the
“sign here” sticky directing her attention to the particular place she would need to sign. She
estimated that she spent approximately 1½ to 2 hours per day signing documents and spent 2 to 3
minutes on each document. Notaries were not present when manager 2 signed documents, and
other signers in her group did not make a habit of signing with notaries present. Further, as a
notary, she did not typically witness the signing of documents and referred to Bank of America’s
shipping log as an electronic notary log.

Personnel File Excerpt
In her 2009 performance review, manager 2 and her supervisor (manager 1) discussed volume
increases and departmental growth:

   •   “Your team continues to grow through this time of unprecedented volume.”
   •   “When assumed the group late in 2006 had no idea, like others, volume would result with
       a dramatic increase. Due to the volume group has evolved from 15-20 associates to 30+
       and continues to grow.”
   •   “In order to assist the huge increase in the document request volume, contractors were
       hired July-August to assist with the prepping of documents…By 3rd quarter, document
       request volume exceeded expectations due to high foreclosure referral volume. To
       address increased volume, in addition to the four above new associates and [sic]
       additional eight associates were hired.”




                                               18
                            Manager 3 – Affiant

Manager 3 signed 7 foreclosure documents for 6 of our 118 sample loans, 1 of which was
potentially presented as evidence in a judicial State court proceeding.

Affiant Statistics
According to Bank of America’s shipping logs, manager 3 signed 36,885 foreclosure documents
during the 2-year review period.

                             Manager 3 signatures by month
                 Month         Documents          Month               Documents
              Oct 2008                  0      Oct 2009                    2,976
              Nov 2008                  0      Nov 2009                      128
              Dec 2008                  0      Dec 2009                         9
              Jan 2009                  1      Jan 2010                    1,090
              Feb 2009                  0      Feb 2010                    3,835
              Mar 2009                  1      Mar 2010                    4,380
              Apr 2009                  0      Apr 2010                    2,294
              May 2009                 56      May 2010                      696
              Jun 2009             2,880       Jun 2010                      997
              Jul 2009             7,938       Jul 2010                         2
              Aug 2009             6,456       Aug 2010                         2
              Sep 2009             3,144       Sep 2010                         0
          Total documents signed                                          36,885

            9,000
            8,000
                               Manager 3 signatures
            7,000
            6,000
            5,000
            4,000
            3,000
            2,000
            1,000
               0
                     Jun 2009




                     Jun 2010
                    Dec 2008




                    Dec 2009
                    Oct 2008




                    Oct 2009
                    Mar 2009

                    May 2009




                    Mar 2010

                    May 2010
                     Jan 2009
                    Feb 2009




                    Sep 2009




                     Jan 2010
                    Feb 2010




                    Sep 2010
                      Jul 2009




                      Jul 2010
                    Nov 2008




                    Apr 2009




                    Aug 2009


                    Nov 2009




                    Apr 2010




                    Aug 2010




                                             19
Manager 3 routinely signed foreclosure documents, including affidavits, certifying that she had
personal knowledge of the facts when she did not. She consistently failed to verify the accuracy
of the foreclosure documents she signed.

CID Testimony
Manager 3 testified that documents were checked before they came to her for signature.
However, she acknowledged that she did not verify information or undertake a review of a
specific loan file to give herself “firsthand knowledge of the business records with respect to an
actual loan before signing a document.” She stated that she looked at the document, looked at
the investor, and signed it. While manager 3 stated that sometimes notaries watched as she
signed documents, she acknowledged that generally they did not watch her sign the documents.

Manager 3 explained that as a vice president, she managed four groups: foreclosure group,
quality control group, reporting group, and document execution group. These groups were
managed by three vice presidents and an assistant vice president. For the quality control group,
manager 3 did not recall any written quality control policies or procedures, and she did not
participate in the creation of policies. She acknowledged an increase in document volume and an
expansion of the document execution group because of the increase. She knew that there were a
number of affiants who were not assigned to the document execution group who signed
foreclosure-related legal documents. According to her, the preparation process simply involved
a stamp being placed on a particular document with a sticky identifying the page to be signed.

Manager 3 also testified that recruiting new affiants was an ongoing process and that managers
made recommendations for them. She was not familiar with the process for the review team in
India. In addition, she acknowledged that she understood that courts relied on documents that
she signed in deciding foreclosure cases.




                                                20
                            Manager 4 – Affiant

Manager 4 signed foreclosure documents for 13 of our 118 sample loans, 5 of which were
potentially presented as evidence in judicial State court proceedings.

Affiant Statistics
According to Bank of America’s shipping logs, manager 4 signed 42,926 foreclosure documents
during the 2-year review period.

                                 Manager 4 signatures by month
             Month      Count      Month      Count       Month           Count
            Oct 2008     1,330    Apr 2009     2,533    Oct 2009           3,380
            Nov 2008       788    May 2009     4,477    Nov 2009             147
            Dec 2008     2,052    Jun 2009     3,927    Dec 2009             220
            Jan 2009     3,059    Jul 2009     2,077    Jan 2010           3,179
            Feb 2009     2,031    Aug 2009     5,439    Feb 2010           1,156
            Mar 2009     3,683    Sep 2009     3,424    Mar 2010              24
           Total documents signed                                         42,926

          6,000
                              Manager 4 signatures
          5,000

          4,000

          3,000

          2,000

          1,000

              0
                  Mar 2009

                  May 2009




                  Mar 2010

                  May 2010
                   Jan 2009
                  Feb 2009




                  Sep 2009




                   Jan 2010
                  Feb 2010




                  Sep 2010
                   Jul 2009




                   Jul 2010
                  Nov 2008




                  Apr 2009




                  Aug 2009



                  Nov 2009
                  Jun 2009




                  Apr 2010




                  Aug 2010
                  Jun 2010
                  Dec 2008




                  Dec 2009
                  Oct 2008




                  Oct 2009




                                             21
Manager 4 routinely signed foreclosure documents, including affidavits, certifying that she had
personal knowledge of the facts when she did not. She consistently failed to verify the accuracy
of the foreclosure documents she signed.

CID Testimony
When asked how she went about gaining an understanding of what she was supposed to do with
documents that were brought to her, manager 4 testified, “I don’t recall if anybody – if my
supervisor spoke to me about it, I mean, you know, you just see it. You just, you know.” Her
standard process in signing documents was to scan the document, ensure that her name was
listed, and then sign it. Manager 4 estimated that she would execute 100 documents per day in ½
hour or less. She stated that notaries were not present when she executed documents. Manager 4
stated that she understood that the documents were verified before she signed them, but she did
not recall how she gained that understanding.




                                               22
                                           Notary 1

Notary 1 notarized 7 foreclosure documents for 6 of our 118 sample loans, 3 of which were
potentially presented as evidence in judicial State court proceedings. Notary 1 notarized the
highest volume of documents during the 2-year review period.

Notary Statistics
According to Bank of America’s shipping logs, notary 1 notarized 77,447 foreclosure
documents, containing 94,167 signatures, during the 2-year review period.

          Documents notary 1 notarized                            Signatures notary 1 notarized
  Month      Documents      Month      Documents          Month        Signatures     Month       Signatures
 Oct 2008        3,687      Oct 2009         267         Oct 2008          4,493     Oct 2009           419
 Nov 2008        3,370      Nov 2009           0         Nov 2008          4,021     Nov 2009             0
 Dec 2008        4,653      Dec 2009           4         Dec 2008          5,817     Dec 2009             4
 Jan 2009        5,266      Jan 2010         294         Jan 2009          6,302     Jan 2010           444
 Feb 2009        6,769      Feb 2010       1,049         Feb 2009          8,535     Feb 2010         1,160
 Mar 2009        9,760      Mar 2010       2,728         Mar 2009         11,880     Mar 2010         3,252
 Apr 2009        6,948      Apr 2010       3,584         Apr 2009          9,273     Apr 2010         3,885
 May 2009        5,355      May 2010         111         May 2009          7,016     May 2010           120
 Jun 2009        2,807      Jun 2010       1,273         Jun 2009          3,493     Jun 2010         1,430
 Jul 2009        3,761      Jul 2010       2,960         Jul 2009          4,917     Jul 2010         3,382
 Aug 2009        1,188      Aug 2010       8,244         Aug 2009          1,448     Aug 2010         9,031
 Sep 2009          616      Sep 2010       2,753         Sep 2009            865     Sep 2010         2,980
Total documents notarized                 77,447        Total signatures notarized                   94,167


          14,000

          12,000
                                         Notary 1 statistics
          10,000

           8,000

           6,000

           4,000

           2,000

               0
                   Mar 2009

                   May 2009




                   Mar 2010

                   May 2010
                    Jan 2009
                   Feb 2009




                   Sep 2009




                    Jan 2010
                   Feb 2010




                   Sep 2010
                    Jul 2009




                    Jul 2010
                   Nov 2008




                   Apr 2009




                   Aug 2009



                   Nov 2009




                   Aug 2010
                   Jun 2009




                   Apr 2010

                   Jun 2010
                   Dec 2008




                   Dec 2009
                   Oct 2008




                   Oct 2009




                                         Documents        Signatures




                                                   23
Notary 1 routinely notarized documents without witnessing affiant signatures and failed to keep
required records of the documents she notarized.

CID Testimony
Notary 1 testified that she did not maintain a notary log book, but Bank of America had an Excel
spreadsheet. She explained that she knew she was required to keep a log as an individual but as
an employee of the bank, she did not feel it was her responsibility. Notary 1 also did not witness
signatures or swear an oath for affiants. She also testified that she observed affiants signing
documents without reading them.

Notary 1 testified that when she began her employment, her department processed 60 to 200
documents per day. It increased to 10,000 to 20,000 documents sitting in an in-box. She stated
that employees wondered how they were going to process them. According to notary 1, half of
the documents were duplicates, and they had a 24- to 48-hour turnaround timeframe, which
notary 1 believed was unreasonable. Notary 1 stated that employees tried to relay the
unreasonableness of the turnaround time to team leaders and supervisors but were told to
continue with what they were doing.

Notary 1 also testified that she and others thought they should be notarizing documents in front
of the affiant. When she raised this issue, she was told that it was acceptable not to be in the
presence of an affiant when notarizing a document if the notary knew the affiant and his or her
signature. Further, she was told by management to stop checking the details on documents such
as assignments, deeds, and affidavits.

Review of Personnel File Excerpts
Although managers represented that Bank of America had no quota system, it appeared that
employees were evaluated based on production. For example, in her 2009 evaluation, notary 1’s
manager made the following comment: “continues to meet the deadlines and complying with the
requirements of the attorneys. She meets the production standards set by the Document
Execution Group.” In addition, notary 1 commented that she had “always been able to meet or
exceed required stats and deadlines,” and her manager commented on notary 1’s understanding
the need to meet the set timelines.




                                                24
                                                                                                  Notary 2

Notary 2 notarized foreclosure documents for 3 of our 118 sample loans, 2 of which were
potentially presented as evidence in judicial State court proceedings.

Notary Statistics
According to Bank of America’s shipping logs, notary 2 notarized 27,585 foreclosure
documents, containing 31,236 signatures, during the 2-year review period.

          Documents notary 2 notarized                                                                                                                                      Signatures notary 2 notarized
  Month      Documents                             Month                             Documents                                                    Month                                Signatures                                   Month                            Signatures
 Oct 2008        1,356    Oct 2009                                                                        502                               Oct 2008         1,372                                                                 Oct 2009                                507
 Nov 2008          691    Nov 2009                                                                        145                               Nov 2008           715                                                                 Nov 2009                                145
 Dec 2008        1,635    Dec 2009                                                                                                          Dec 2008         1,666                                                                 Dec 2009                                  0
 Jan 2009        1,272    Jan 2010                                                                   26                                     Jan 2009         1,288                                                                 Jan 2010                                 30
 Feb 2009        1,215    Feb 2010                                                                  213                                     Feb 2009         1,268                                                                 Feb 2010                                229
 Mar 2009        1,152    Mar 2010                                                                  211                                     Mar 2009         1,180                                                                 Mar 2010                                217
 Apr 2009        2,182    Apr 2010                                                                  457                                     Apr 2009         2,253                                                                 Apr 2010                                457
 May 2009        2,299 May 2010                                                                     305                                     May 2009         2,814                                                                 May 2010                                305
 Jun 2009        3,278    Jun 2010                                                                  902                                     Jun 2009         3,763                                                                 Jun 2010                                907
 July 2009       4,268    July 2010                                                                  16                                     July 2009        5,299                                                                 Jul 2010                                 16
 Aug 2009        4,514    Aug 2010                                                                    0                                     Aug 2009         5,617                                                                 Aug 2010                                  0
 Sep 2009          946    Sep 2010                                                                    0                                     Sep 2009         1,188                                                                 Sep 2010                                  0
Total documents notarized                                                                        27,585                                    Total signatures notarized                                                                                                   31,236


          6,000
                                                                                    Notary 2 statistics
          5,000

          4,000

          3,000

          2,000

          1,000

              0
                                                                         Mar 2009


                                                                                               May 2009




                                                                                                                                                                                                             Mar 2010


                                                                                                                                                                                                                                    May 2010
                                                   Jan 2009
                                                              Feb 2009




                                                                                                                                           Sep 2009




                                                                                                                                                                                       Jan 2010
                                                                                                                                                                                                  Feb 2010
                                                                                                                     Jul 2009




                                                                                                                                                                                                                                                          Jul 2010
                             Nov 2008




                                                                                    Apr 2009




                                                                                                                                Aug 2009



                                                                                                                                                                 Nov 2009
                                                                                                          Jun 2009




                                                                                                                                                                                                                        Apr 2010


                                                                                                                                                                                                                                               Jun 2010
                                        Dec 2008




                                                                                                                                                                            Dec 2009
                  Oct 2008




                                                                                                                                                      Oct 2009




                                                                                               Documents                                              Signatures




                                                                                                                          25
Notary 2 routinely notarized documents without witnessing affiant signatures and failed to keep
required records of the documents he notarized.

CID Testimony
Notary 2 testified that generally he was not present when affiants signed documents and he did
not maintain a notary log book. He stated that this was the normal practice at Countrywide and
Bank of America. In cases of rush documents (approximately 1 percent of the documents), he
would witness signatures. Notary 2 testified that supervisors were aware of his and other
notaries’ practice of not witnessing affiants signing documents. Productivity was monitored by
the team managers, and they would periodically change the performance metrics.

According to notary 2, Countrywide’s instructions on how to notarize documents was nothing
more than where to place the notary stamp and sign the document. He received no other notary
training, written materials, or oral instructions. When he became a Bank of America employee,
his process did not change. To his recollection, Bank of America did not perform an operational
review of his area when it acquired Countrywide.




                                               26
